Review Of New York State's Efforts to Account for and Monitor Sub-Recipients' Use of Bio-terrorism Hospital Preparedness   Program Funds, (A-02-03-02012)
Department of Health
and Human Services
"Review Of New York State's Efforts to Account for and Monitor Sub-Recipients' Use of Bio-terrorism Hospital Preparedness
Program Funds," (A-02-03-02012)
December 19, 2003
Complete
Text of Report is available in PDF format (590 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Health Research, Incorporated (HRI) properly recorded, summarized
and reported bio-terrorism preparedness transactions in accordance with the terms and conditions of the cooperative agreement
with the Department of Health and Human Services (HHS), Health Resources and Services Administration (HRSA).  HRI
is the fiscal agent responsible for administering the Program grant on behalf of the New York State Department of Health
(DOH).  Our review found that HRI accounted for Program funds in accordance with the terms and conditions of the cooperative
agreement with HRSA.  Specifically, HRI recorded, summarized and reported transactions in discrete accounts established
to account for bio-terrorism funding.  We also found that, while HRI and DOH implemented controls and procedures to
monitor sub-recipients expenditures of HRSA funds, they are not currently performing on-site audits of sub-recipients.  However,
HRI and DOH indicated that they plan to add an on-site audit component to their monitoring procedures with funding from
the Program.  We recommended that HRI and DOH continue to implement plans to add an on-site audit component for monitoring
sub-recipients and address problem areas, as they are identified.